                                                      SENSITIVE BUT UNCLASSIFIED


                                               United States Department of State

                                            and the Broadcasting Board of Governors

                                                   Office of Inspector General

Office of Inspector General


                                                        Office of Audits



                                   Audit of the Department of State Process

                                     To Award the Worldwide Protective

                                    Services Contract and Kabul Embassy

                                          Security Force Task Order


                                           Report Number AUD/SI-12-17, December 2011




                                                                Important Notice

                               This report is intended solely for the official use of the Department of State of the
                               Broadcasting Board of Governors, or any agency or organization receiving a copy
                               directly from the Office of Inspector General. No secondary distribution may be
                               made, in whole or in part, outside the Department of State or the Broadcasting Board
                               of Governors, by them or by other agencies of organizations, without prior
                               authorization by the Inspector General. Public availability of the document will be
                               determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.Improper
                               disclosure of this report may result in criminal, civil, or administrative penalties.



                                                     SENSITIVE BUT UNCLASSIFIED

                                                                 

                                                SENSITIVE BUT UNCLASSIFIED
 

                         Department of State Office of Inspector General
                         Spotlight: Audit of the Department of State Process To Award
                         the Worldwide Protective Services Contract and Kabul Embassy
                         Security Force Task Order
Why OIG Conducted This Audit 
On March 14, 2011, Senator Claire McCaskill, Chairman of the Senate Subcommittee on Contracting Oversight, requested 
that the Office of Inspector General (OIG) “investigate the State Department’s review of contractor past performance prior 
to the award of the Worldwide Protective Services (WPS) contract and the Kabul Embassy task order, including whether the 
Department reviewed information from the Defense Department of the incidents discussed in the Senate Armed Services 
Committee report.”   


Objective 
The OIG conducted this audit to determine whether the Department’s process to award the WPS contract and Kabul         
Embassy Security Force (KESF) task order included required procedures to assess contractor responsibility, including past 
performance and technical merit.    

What OIG Found 
The WPS contract is an indefinite delivery/indefinite quantity umbrella contract to provide security services in critical and 
higher than critical threat areas, such as Iraq and Afghanistan.  The WPS contract was awarded to eight contractors on      
September 29, 2010.  The KESF task order is for security services at U.S. Embassy Kabul under the WPS contract.  The KESF 
task order was initially awarded to EOD Technologies, Inc. (EODT), on September 30, 2010; however, the Department        
subsequently terminated the task order on March 11, 2011.  On July 29, 2011, the Department awarded the re‐competed 
KESF task order to Aegis Defense Services, LLC. 

OIG found that the Department’s process to award the WPS contract and KESF task order included required procedures to 
assess contractor responsibility, including evaluations of past performance and technical merit.  Specifically, the Department 
developed and followed two source selection evaluation plans that were used to evaluate the WPS contract and KESF task 
order proposals and were prepared in accordance with the Federal Acquisition Regulation, Department guidance, and the 
WPS contract solicitation.  The technical and past performance evaluations of WPS contract proposals were conducted by a 
technical evaluation panel that comprised Bureau of Diplomatic Security personnel who, according to a Bureau of Diplomatic 
Security official, had area knowledge and operational experience to evaluate the proposals.  The panel provided the     
evaluations and recommendations for award of the WPS contract and KESF task order to the contracting officer.  The        
contracting officer reviewed the panel’s recommendations, conducted a determination of responsibility to ensure that only 
responsible contractors received the awards, and submitted the award recommendations to the source selection authority 
for final approval.  The source selection authority made the final award decisions for both the WPS contract and the KESF 
task order. 

In addition, OIG found that the Department was not aware of EODT’s past performance, as reported by the Senate Armed 
Services Committee’s report that was released to the public in October 2010, which was after the WPS contract and KESF 
task order had been awarded.  The Federal Acquisition Regulation does not require the Department to directly contact other   
Federal agencies regarding the past performance of contractors, but it does require that contracting office use of                
information from the Past Performance Information Retrieval System to obtain contractors’ past performance history.  OIG   
determined that the Department used this system to obtain information regarding EODT’s performance on Department of 
Defense contracts but that the information did not include the negative performance issues identified in the Senate Armed 
Services Committee report.  
                                                SENSITIVE BUT UNCLASSIFIED 
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office ofInspector General




                                         PREFACE




     This repoM was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978. as amended. and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit inspection, investigative. and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office. post.
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

     It is my hope that this repoM will result in more effective . efficient, and/or economical
operations. I express my appreciation to all of those who contributed to the preparation of this
report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                        SENSITIVE BUT UNCLASSIFIED





Acronyms
EODT       EOD Technologies, Inc.
EPLS       Excluded Parties List System
GAO        Government Accountability Office
FAR        Federal Acquisition Regulation
KESF       Kabul Embassy Security Force
OIG        Office of Inspector General
PPIRS      Past Performance Information Retrieval System
WPS        Worldwide Protective Services




                        SENSITIVE BUT UNCLASSIFIED

                                            SENSITIVE BUT UNCLASSIFIED


                                                        Table of Contents 

Section                                                                                                                                  Page

Executive Summary .........................................................................................................................1 


Background…. .................................................................................................................................2 


Objective……. .................................................................................................................................6 


Audit Results ..................................................................................................................................6 

       The Source Selection Evaluation Plans ...............................................................................7 

       Worldwide Protective Services Contract .............................................................................8 

       Kabul Embassy Security Force Task Order .......................................................................10 


Other Matters ................................................................................................................................13 


Appendices
      A. Scope and Methodology................................................................................................14 

      B. Technical Evaluation Panel’s Ratings of Offerors ........................................................16 

      C. Letter From the Chairman of the Subcommittee on Contracting Oversight,
           U.S. Senate Committee on Homeland Security and Governmental Affairs ..............17 

      D. Bureau of Diplomatic Security Response .....................................................................20 

      E. Bureau of Administration Response ..............................................................................21 


Major Contributors to This Report ................................................................................................22 





                                            SENSITIVE BUT UNCLASSIFIED

                                    SENSITIVE BUT UNCLASSIFIED


                                            Executive Summary
        The Department of State (Department), Office of Inspector General (OIG), conducted
this audit to determine whether the Department’s process to award the Worldwide Protective
Services (WPS) contract and Kabul Embassy Security Force (KESF) task order included
required procedures to assess contractor responsibility, including past performance and technical
merit. The audit was conducted at the request of the Chairman of the Subcommittee on
Contracting Oversight, U.S. Senate Committee on Homeland Security and Governmental
Affairs, who asked that OIG “investigate the State Department’s review of contractor past
performance prior to the award of the WPS contract and the Kabul Embassy task order, including
whether the Department reviewed information from the Defense Department or the incidents
discussed in the Senate Armed Services Committee report.”1

       The WPS contract is an indefinite delivery/indefinite quantity umbrella contract to
provide security services in critical and higher than critical threat areas, such as Iraq and
Afghanistan. The WPS contract was awarded to eight contractors on September 29, 2010. The
KESF task order is for security services at U.S. Embassy Kabul under the WPS contract. The
KESF task order was initially awarded to EOD Technologies, Inc. (EODT), on September 30,
2010; however, the Department subsequently terminated the task order on March 11, 2011. On
July 29, 2011, the Department awarded the re-competed KESF task order to Aegis Defense
Services, LLC.

        OIG found that the Department’s process to award the WPS contract and KESF task
order included required procedures to assess contractor responsibility, including evaluations of
past performance and technical merit. Specifically, the Department developed and followed two
source selection evaluation plans that were used to evaluate the WPS contract and KESF task
order proposals and were prepared in accordance with the Federal Acquisition Regulation
(FAR), Department guidance, and the WPS contract solicitation. The technical and past
performance evaluations of WPS contract proposals were conducted by a technical evaluation
panel comprised of Bureau of Diplomatic Security personnel who, according to the bureau, had
area knowledge and operational experience to evaluate the proposals. The panel provided the
evaluations and recommendations for award of the WPS contract and KESF task order to the
contracting officer. The contracting officer reviewed the panels’ recommendations, conducted a
determination of responsibility to ensure that only responsible2 contractors received the awards,
and submitted the award recommendations3 to the source selection authority for final approval.
The source selection authority made the final award decisions for both the WPS contract and the
KESF task order.


1
  U.S. Senate Committee on Armed Services, Report: Inquiry Into the Role and Oversight of Private Security
Contractors in Afghanistan (Sept. 28, 2010).
2
  FAR 9.104-1, “Responsible Prospective Contractors–General standards,” states that a responsible contractor must
have certain characteristics, including “adequate financial resources to perform the contract,” “a satisfactory record
of integrity and business ethics,” and “a satisfactory performance record.” EODT was found to have met all of the
requirements and was deemed to be a responsible contractor.
3
  As for the KESF task order, the panel recommended (b) (4)                           for the award; however, the
contracting officer ultimately selected EODT.
                                                 1
                                    SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED




        In addition, OIG found that the Department was not aware of EODT’s past performance
until the Senate Armed Services Committee’s report4 was released to the public in October 2010,
which was after the WPS contract and KESF task order had been awarded. The FAR5 does not
require the Department to directly contact other Federal agencies regarding the past performance
of contractors, but it does require that contracting officer use of information from the Excluded
Parties List System (EPLS) and the Past Performance Information Retrieval System (PPIRS)6 to
obtain contractors’ past performance history.7 The FAR also states that other sources of
performance should be reviewed in addition to PPIRS, such as subcontractor history and
references from other government agencies. OIG determined that the Department used this
system to obtain information regarding EODT’s performance on Department of Defense
contracts but that the information did not include the negative performance issues identified in
the Senate Armed Services Committee report.8

        OIG provided the Bureau of Diplomatic Security and the Bureau of Administration a
draft of this report on November 1, 2011. In its November 22, 2011, response to the draft report
(see Appendix D), the Bureau of Diplomatic Security did not provide any comments. In its
November 29, 2011, response to the draft report (see Appendix E), the Bureau of Administration
requested that the names of contract non-awardees included in this report be redacted. OIG
agreed to redact these names, asserting Exemption 4 of the Freedom of Information Act.
(Exemption 4 is used to protect confidential commercial or financial information.)

                                                Background

        On March 14, 2011, the Chairman of the Subcommittee on Contracting Oversight, U.S.
Senate Committee on Homeland Security and Governmental Affairs, requested that OIG
“investigate the State Department’s review of contractor past performance prior to the award of
the WPS contract and the Kabul Embassy task order, including whether the Department
reviewed information from the Defense Department or the incidents discussed in the Senate
Armed Services Committee report.”9 (The Chairman’s letter is in Appendix C.)

Worldwide Protective Services Contract

        The WPS contract is an indefinite delivery/indefinite quantity umbrella contract to
provide security services in critical and higher than critical threat areas, such as Iraq and
Afghanistan. DS developed the comprehensive WPS contract to combine the requirements of
the Worldwide Personal Protective Services II contract, which expired at the end of 2010, and
the individual local guard force contracts for U.S. Embassies Baghdad and Kabul. The WPS


4
  U.S. Senate Committee on Armed Services report.

5
  FAR 9.105-1(c), “Responsible Prospective Contractors–Obtaining information.” 

6
  PPIRS is the past performance repository system for Federal agencies, which also contains the past performance 

information for Department of Defense contractors.

7
  FAR 9.105-1(c). 

8
  Ibid. 

9
  Ibid. 

                                                2
                                   SENSITIVE BUT UNCLASSIFIED
                                       SENSITIVE BUT UNCLASSIFIED


    contract has a maximum value of $10 billion for all task orders combined, including one base
    year and four 1-year options.

           The Department issued the WPS contract solicitation on April 22, 2010, and received
    proposals from the following 12 offerors by June 23, 2010: Aegis Defense Services, LLC; SOC,
    LLC; International Development Solutions, LLC;10 Torres International Services, LLC;11 EODT;
    Triple Canopy, Inc; Global Strategies Group, Inc; DynCorp International, LLC;


            The Department initially planned to award the WPS contract to up to six contractors,
    which would then compete for the individual task orders awarded under the WPS contract.
    However, because of the Department’s need for increased operational capacity, the Department
    awarded the WPS contract to eight contractors rather than six. As of September 15, 2011, the
    Department had awarded seven task orders under the WPS contract to include the KESF task
    order.13 The KESF task order is for security services at U.S. Embassy Kabul. The KESF task
    order was originally awarded to EODT on September 30, 2010; however, the task order was
    subsequently terminated on March 11, 2011. The KESF task order, for the same security
    services as the original, was re-competed and awarded to Aegis Defense Services, LLC, on July
    29, 2011.

    The Federal Acquisition Regulation

            The FAR is the primary regulation used by all Federal Executive agencies for the
    acquisition of supplies and services with appropriated funds. According to the FAR,14 the
    contracting process for negotiated contracts begins with the issuance of a request for proposal to
    communicate requirements to prospective contractors and to solicit proposals. The request for
    proposal must describe, at a minimum, anticipated contract terms and conditions, information
    required in the offeror’s proposal, and factors that will be used to evaluate the proposal.

    The FAR15 requires that the source selection authority16–often the contracting officer–establish
    an evaluation team that is tailored for each acquisition and comprises personnel with appropriate
    expertise to ensure comprehensive evaluation of offers. The team is responsible for evaluating
    proposals and assessing their relative qualities solely on the factors and subfactors specified in
    the solicitation. The FAR17 requires the evaluation team using the tradeoff process18 to assess

(b) (4)




(b) (4)
     13
        As of Sept. 15, 2011, the Department awarded the following seven task orders: Baghdad Embassy Security Force,

     Baghdad Movement Security, Basrah Protective Security, Erbil/Kirkuk Protective Security, Herat/Mazar e Sharif 

     Protective Security, Jerusalem Movement Security, and Kabul Embassy Security Force. 

     14
        FAR 15.203(a), “Solicitation and Receipt of Proposals and Information–Requests for proposals.”

     15
        FAR 15.303(b)1, “Source Selection–Responsibilities.” 

     16
        FAR 15.303(a) states that the contracting officer is designated as the source selection authority unless another

     individual is appointed for a particular acquisition or group of acquisitions. 

     17
        FAR 15.305(a)3.i, “Source Selection–Proposal evaluation.” 

                                                    3
                                       SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


each offeror’s ability to accomplish the technical requirements specified in the solicitation. The
FAR19 states that if past performance is included in the request for proposal as a criterion, then
“the currency and relevance of the information, source of the information, context of the data,
and general trends in contractor’s performance shall be considered” separately from the
responsibility determination. The relative strengths, significant weaknesses, and risks supporting
the proposal evaluation should be documented in the contract file. After the team evaluates all
proposals, the contracting officer establishes a competitive range composed of the most highly
rated proposals. According to the FAR,20 negotiations that take place after the contracting
officer establishes the competitive range are called “discussions.” Discussions provide the
Department the ability to obtain the best value based on solicitation requirements.

        Before a contract is awarded, the contracting officer is required by the FAR21 to ensure
that the prospective contractor is responsible and must make an affirmative determination of
responsibility. Responsibility is indicated when, among other things, the contractor has a
satisfactory performance record; however, according to the FAR,22 a lack of relevant
performance history alone cannot be the basis for a determination of nonresponsibility unless
unusual expertise or specialized facilities are needed for adequate contract performance. If
information is not available that clearly indicates that the prospective contractor is responsible,
the contracting officer must make a determination of nonresponsibility. The FAR23 also requires
that the contracting officer consider information regarding the prospective contactors in PPIRS24
and the EPLS.25

       The source selection authority makes the final award decision based on the comparative
assessment of proposals against all source selection criteria in the solicitation. The FAR26 states
that while the source selection authority can use reports and analyses prepared by others, the
source selection decision “shall represent the [source selection authority’s] independent
judgment.”




18
   FAR 15.101-1, “Source Selection Processes and Techniques–Tradeoff process,” indicates the tradeoff process is 

appropriate when it may be in the best interest of the Government to consider awards to other than the lowest price 

offeror or the highest technically rated offeror. 

19
   FAR 15.305(a)2.i. 

20
   FAR 15.306(d), “Source Selection–Exchanges with offerors after receipt of proposals.”

21
   FAR 9.103(b), “Responsible Prospective Contractors–Policy.” 

22
   FAR 9.104–1(c).

23
   FAR 9.105–1(c), “Responsible Prospective Contractors–Obtaining information.” 

24
   The Past Performance Information Retrieval System (PPIRS) is a Web-enabled application for reporting and 

retrieving contractor performance data on federal contracts. FAR 42.1503(c), “Contractor Performance 

Information–Procedures,” requires agencies to submit contractor performance information to PPIRS. The system

consolidates other similar applications into one system that both contracting officials and contractors officers can 

access. 

25
   The Excluded Parties List System provides “a single comprehensive list of individuals and firms excluded by

Federal government agencies from receiving federal contracts.” [Source: Excluded Parties List System Web site 

Frequently Asked Questions, https://www.epls.gov/epls/jsp/FAQ.jsp#2, accessed on Sept. 29, 2011.]

26
   FAR 15.308, “Source Selection–Source selection decision.” 

                                                 4
                                    SENSITIVE BUT UNCLASSIFIED
                                 SENSITIVE BUT UNCLASSIFIED



Department Guidance

        The Department implements the FAR requirements through the Foreign Affairs Manual27
and the Foreign Affairs Handbook (FAH)28 through directives for the contracting officer and
contracting officer’s representative for solicitation, evaluation, and award of contracts. For
example, the FAH requires that requests for proposals include the evaluation criteria and their
relative importance in the solicitation.29 In addition, the Department’s process for evaluating
proposals in accordance with FAR requirements is described in the FAH, which provides
guidance for the evaluation team, which the Department calls the “technical evaluation panel.”30

Prior Review of Past Performance

        The Government Accountability Office (GAO) has audited the role of past performance
in the acquisition process and expressed concerns as to how agencies use past performance
information to determine contractor suitability. That office documented its concerns in reports
issued in 2009 and 2011. In April 2009, GAO31 evaluated five agencies on their sharing and use
of past performance information Government-wide. As part of the evaluation, GAO interviewed
contracting officers, reviewed the data fed into PPIRS, and reviewed rating scales for each factor
identified in the solicitations. In the interviews, 60 percent of the contracting officers reported
that past performance was rarely a deciding factor in awarding contracts and that objective
factors such as price or technical approach tended to be more important in decision-making.
Contracting officers also reported that they tended to rely more on sending questionnaires to
references when evaluating past performance, in part because of the absence of information in
PPIRS. GAO found that only a small percentage of contracts had been documented in PPIRS.
GAO also found that the system’s lack of standardized evaluation factors and rating scales did
not allow for aggregate measures of contractor performance. Lastly, GAO found a lack of
central oversight and management of PPIRS. GAO recommended that changes be made to the
FAR for past performance information such as requiring agencies to adopt standard procedures
for preparing past performance reports and utilizing PPIRS government-wide. Those
recommendations are now closed and implemented, but weaknesses continue, as noted in the
2011 report.

       In October 2011, GAO32 reviewed construction contracts of components from three
agencies to evaluate how prior experience and past performance information were used to make
award decisions. GAO found that agencies more closely evaluated past performance in best
value contracting processes rather than during lowest price technically acceptable processes.
Further, GAO found that agency contracting officers sought additional information using past
performance questionnaires, because of incomplete information in PPIRS. While GAO observed
27
   14 FAM 200, “Logistics Management–Acquisitions.”

28
   14 FAH-2, “Contracting Officer’s Representative Handbook.” 

29
   14 FAH-2 H-414(c), “Solicitations.” 

30
   14 FAH-2 H-424, “Performing the Technical Evaluation.”

31
   GAO-09-374, “Federal Contractors: Better Performance Information Needed to Support Agency Contract Award 

Decisions,” Apr. 2009. 

32
   GAO-12-102R, “Prior Experience and Past Performance as Evaluation Criteria in the Award of Federal 

Construction Contracts,” Oct. 18, 2011.


                                              5
                                 SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


that the information in PPIRS is incomplete and limited on Federal contracts, GAO did not make
any recommendations addressing this issue.

Department Bureaus and Offices Responsible for the WPS Contract

       The Bureau of Administration, Office of Logistics Management, Office of Acquisitions
Management, Worldwide Operations Division, is responsible for establishing acquisition
agreements, including contracts, financial assistance, and interagency agreements for the
functional bureaus within the Department. The Worldwide Operations Division was responsible
for awarding the WPS contract. The contracting officer was the Worldwide Operations Division,
Security Branch chief, and the source selection authority was the Worldwide Operations
Division chief.

        DS’s International Programs Directorate, Office of Overseas Protective Operations, High
Threat Protection Division, provides financial and contractual management oversight, personnel,
training, and operational guidance required to provide a safe and secure environment for the
conduct of U.S. foreign policy. The High Threat Protection Division is the program office
responsible for overseeing WPS contract operations. Staff from the High Threat Protection
Division served as the technical evaluation panel members for the WPS contract and the KESF
task order.

                                                  Objective

       The objective of this audit was to determine whether the Department’s process to award
the WPS contract and the KESF task order included required procedures to assess contractor
responsibility, including past performance and technical merit.

                                               Audit Results

        OIG found that the Department’s process to award the WPS contract and the KESF task
order specified required procedures to assess contractor responsibility, including evaluations of
past performance and technical merit. Specifically, the Department developed and followed two
source selection evaluation plans that were used to evaluate the WPS contract and KESF task
order proposals and were prepared in accordance with the FAR, Department guidance, and the
contract solicitation.33 The technical and past performance evaluations of the WPS contract and
the KESF task order proposals were conducted by panels that comprised DS personnel who had
area knowledge and operational experience to evaluate the proposals. The technical panels
provided the evaluations and recommendations for award of the WPS contract and the KESF
task order to the contracting officer. The contracting officer reviewed the panels’
recommendations; conducted a determination of responsibility to ensure that only responsible
contractors received the awards, as required by the FAR;34 and submitted the award


33
   WPS Solicitation Section L, “Instructions, Conditions, and Notices to Offerors and Respondents,” and Section M, 

“Evaluation Factors for Award.”

34
   FAR 9.103(b). 

                                                6
                                   SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


recommendations to the source selection authority for final approval. The source selection
authority made the final award decisions for both the WPS contract and the KESF task order.

The Source Selection Evaluation Plans

        The contracting officer and DS personnel jointly prepared the source selection evaluation
plans that would be used by the technical panel to evaluate WPS contract and KESF task order
proposals. The source selection evaluation plans detailed the criteria and ratings to be used to
evaluate the WPS contract and the KESF task order awards. The FAR35 requires that proposals
be evaluated solely on the factors identified in the solicitation. OIG reviewed the source
selection evaluation plans and found that the criteria for evaluating the WPS contract and the
KESF task order proposals aligned with the criteria included in the WPS contract solicitation and
the KESF statement of work. For example, the WPS contract solicitation outlined the areas that
the Department would evaluate the proposals against, including minimum experience level, past
performance, and technical merit. The technical merit factor included four sub-factors:
personnel staffing, recruitment, screening/vetting, and retention; training; program and logistics
management; and risk management and mitigation. The source selection evaluation plan for the
WPS contract incorporated the outlined criteria, including the four sub-factors of technical merit.
In addition, the KESF task order solicitation evaluation criteria included technical merits of the
“task order management plan,”36 which was outlined in the statement of work, as well as the
offerors’ past performance. The source selection evaluation plan used to evaluate the KESF task
order also included evaluations of the technical aspects and past performance.

        The source selection evaluation plans also detailed the order of importance of the criteria
and identified the technical aspects and past performance as more important than price for the
WPS contract and associated task orders, including the KESF task order. The WPS contract
solicitation stated that the contract was to be awarded as a “best value”37 to the Government
rather than to the lowest priced proposal. In addition, both source selection evaluation plans
stated that if a technically satisfactory proposal other than the lowest priced proposal was
selected for award, a narrative must explain the perceived benefits of the higher priced proposal
and why it merited the additional cost.

        Additionally, the source selection evaluation plans included a rating system for
evaluating the proposals against the criteria. The source selection evaluation plans stated that
each rating should include a narrative explanation supporting the rating given. The same rating
system was used for the technical aspects of the proposal evaluations and the past performance




35
   FAR 15.305(a).
36
   Task Order Management Plan requirements included plans for transition, training, and operations.
37
   14 FAH-2 H-361(b)1, “Technical Evaluation Criteria and Plan–Purpose of Technical Evaluation,” states that the
Department may make award to other than the lowest-priced proposal through the tradeoff process, which “provides
for the evaluation of technical and other factors in addition to cost or price to determine the proposal that represents
the best overall value to the U.S. Government.” However, as offers become technically equivalent, cost or price
may become the determining selection factor.

                                                 7
                                    SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED

evaluations. The technical evaluation panel could assign the following ratings in descending
order: “excellent,” “good,” “marginal,” “unacceptable,” and “neutral.”38

Worldwide Protective Services Contract

        OIG found that both the contracting officer and the technical evaluation panel performed
required procedures to assess contractor responsibility before the WPS contract was awarded.
OIG also found that the contracting officer gathered past performance information that was used
in both determining contractor responsibility and evaluating past performance. Past performance
information included questionnaires that the contracting officer sent to the offerors’ references,
other known contracting officers, and contracting officer’s representatives in the Department;
data gathered from PPIRS; and Internet searches related to the offerors and their subcontractors.
In addition, as recommended by the FAR,39 the contracting officer arranged pre-award surveys
of the offerors’ proposed training facilities to ensure the WPS contract solicitation requirements
would be met. Furthermore, OIG found that the technical evaluation panel for the WPS contract
comprised three DS personnel who were “technically competent to identify the strengths and
weaknesses of the various proposals,” as required by Department policy.40 Finally, OIG found
that the contracting officer had made affirmative determinations of responsibility for each offeror
before the WPS contract was awarded, as required by the FAR.41 In making the determination of
responsibility, the contracting officer also reviewed the EPLS to ensure that each offeror was not
suspended or debarred and therefore could not receive Federal contracts.

         During the evaluations, the technical evaluation panel reviewed the 12 proposals
submitted in response to the WPS contract solicitation; evaluated each offeror’s approach to each
technical sub-factor; and considered the currency and relevance of the past performance
information, source of the information, context of the data, and general trends in the offerors’
performance. The contracting officer and Office of Acquisitions Management staff provided
guidance to the panel and acted as liaisons throughout the evaluation process. The FAR42
requires that the contracting officer control all exchanges with the offerors after receipt of
proposals. For example, questions that arose during the evaluation process were addressed and
provided to the contracting officer, who in turn corresponded with the offeror. Based on its
review, the panel rated each proposal and determined that the eight highest technical and past-
performance rated contractors should be included in discussions to determine final award
recommendations. Upon the contracting officer’s determination of which contractors would be
included in the discussions, one contractor, Global Strategies Group, Inc., protested its exclusion
from discussions and was subsequently added back to the discussions by the Department, for a
total of nine contractors included in the discussions period.43


38
   The technical evaluation panel assigns a neutral rating only if the offeror has no relevant past performance or if

past performance information is not available. 

39
   FAR 9.105-1(b)(1).

40
   14 FAH-2 H-421.1, “Contracting Officer’s Representative (COR) Responsibilities.”

41
   FAR 9.103(b). 

42
   FAR 15.303(c). 

43
   The Department agreed to allow Global Strategies Group, Inc., to be included in the discussion process, provided

that it addressed the weaknesses identified in the initial technical panel’s evaluation and agreed to not protest the 

shortened timeline for providing a final proposal revision.

                                                 8
                                    SENSITIVE BUT UNCLASSIFIED
                                     SENSITIVE BUT UNCLASSIFIED

         The technical evaluation panel identified areas of weaknesses in both technical and past
performance areas in each proposal, and it asked each offeror to address, through the contracting
officer, its responses to these weaknesses. Based on the offerors’ responses to the panel’s
questions, the panel evaluated and adjusted some of the ratings from the initial ratings (prior to
discussions) to the final ratings. (The panel’s initial and final ratings are shown in Appendix B.)
For example, prior to discussions, the panel identified weaknesses related to EODT’s proposal in
three of the four sub-factors: personnel staffing, recruitment, screening/vetting, and retention;
training; and risk management and mitigation. As a result, the technical evaluation panel
initially rated EODT’s technical merit as “marginal.” During discussions, EODT provided a
response for each weakness, and the panel evaluated each response and adjusted EODT’s
technical rating to “excellent.” Similarly, the panel reviewed EODT’s 15 past performance
documents and assigned an initial past performance rating of “unacceptable” because of the
panel’s concerns about problems in prior contracts, such as when EODT received a cure notice44
on one of its Department of Defense contracts. However, EODT’s explanations during the
discussions period prompted a revised rating of “marginal.”

       OIG reviewed the technical evaluation panel’s documentation and determined, based on
the questions and responses from the offerors, that the adjustments to the ratings were supported
and evaluated consistently with the criteria in the source selection evaluation plan. The panel
also evaluated each offeror’s mandatory minimum experience in addition to past performance
and technical merit.

        OIG found that the panel recommended six offerors for award of the WPS contract. Each
of the six recommended offerors met the mandatory minimum experience requirements and
achieved a final overall technical rating of at least “good” and a minimum past performance
rating of “marginal.” The six offerors the panel recommended were (b) (4)



         Worldwide Protective Services Contract Award Decision

        OIG found that the contracting officer considered the technical panel’s recommendations
when making award recommendations to the source selection authority, as required by the
FAR.45 However, the source selection authority did not agree with the contracting officer and
the panel’s recommendations when making the final award decision. The FAR46 states that the
source selection authority may use the analysis prepared by others but that the decision for award
should represent the source selection authority’s independent judgment. OIG found that the
source selection authority added two contractors,                            Inc., and
(b) (4)             in the final award decision in addition to the six recommended contractors.
The source selection authority provided written justification for the decision, stating that the

44
   FAR 49.607(a), “Delinquency Notices–Cure Notice,” defines a cure notice as required before terminating a

contract for default prior to the delivery date. It is a written notice from the contracting officer to the contractor that 

specifies the failure and provides a period of 10 days (or longer period as necessary) for the contractor to cure the 

failure.

45
   FAR 15.303(b)(5). 

46
   FAR 15.308. 

                                                  9
                                     SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


decision was “based on the need for greater operational capacity in supporting the Department of
State’s mission for readiness and ability to provide appropriate levels of uniformity and
oversight” and the panel’s technical ratings.47 The source selection authority acknowledged that
                               had an “unacceptable” past performance rating and therefore may
need increased Department oversight; however, the source selection authority stated that he
believed that both                                 and                               would
perform successfully under the WPS contract. OIG found that the source selection authority’s
independent decision was properly documented under the FAR.48

       The eight contractors awarded the WPS contract on September 29, 2010, were the
following:
            Aegis Defense Services, LLC
            SOC, LLC
            International Development Solutions, LLC
            Torres International Services, LLC
            EODT
            Triple Canopy, Inc.
            Global Strategies Group, Inc.
            DynCorp International, LLC

Kabul Embassy Security Force Task Order

        The KESF task order proposals were evaluated using the same process as was used for
the WPS contract. A separate 3-person technical evaluation panel prepared its evaluations of
KESF task order proposals after the determination of which contractors would be awarded the
WPS contract but before the award announcement was made. The contracting officer said that
because there was an exception in the appropriations law49 to award the KESF task order as a
best value contract, the Department chose to wait to announce the WPS contract and KESF task
order awards together to avoid protests that may have slowed or stopped the panel’s evaluations
beyond the end of the fiscal year, at which time the KESF task order would no longer be allowed
to be awarded as best value. OIG found that the proposals for the KESF task order were
submitted at the same time as the proposals for the WPS contract, so the evaluations were able to
begin as soon as possible following the WPS contract panel evaluations.

         The technical evaluation panel evaluated eight proposals and determined that four
offerors were eligible for discussions. OIG determined that the KESF task order panel followed
all of the steps necessary for evaluating and rating each offeror’s technical approach and past
performance. (The panel’s initial and final ratings are shown in Table 2, Appendix B.) The
panel evaluated each offeror's technical approach to several operational factors, and unlike the
WPS contract past performance evaluation, the panel focused on the past performance

47
   In the technical evaluation panel post discussion rating analysis, Global Strategies Group, Inc., and DynCorp 

International, LLC, received overall technical ratings of “marginal” and “good,” respectively. 

48
   FAR 15.308.

49
   The Consolidated Appropriations Act of 2010, sec.7006, authorized the Department to allow best value

contracting for guard contracts in Afghanistan, Iraq, and Pakistan only for FY 2010.

                                               10
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


evaluations on contracts that had been performed during the previous 12 months in austere, high-
threat environments and that involved security operations similar in size, scope, or complexity to
those in the KESF task order. For example, the panel limited EODT’s past performance
evaluation to eight past performance documents for security services performed in Iraq and
Afghanistan within the established timeframe.

        The technical evaluation panel developed questions for each offeror, which included
technical weaknesses and requests for clarification, and provided the questions to each offeror
through the contracting officer. Based on the offerors’ responses to the questions, the panel
adjusted some of the initial ratings. For example, the panel adjusted Global Strategies Group,
Inc.’s technical rating from “good” to “excellent” after that offeror addressed weaknesses in its
vehicle maintenance program. Further, the panel did not identify any weaknesses in EODT’s
past performance, and it rated EODT’s past performance as “excellent” because six of the eight
reports assessed EODT’s overall performance as “excellent.” The remaining two past
performance documents rated EODT’s overall performance as “good.”

         OIG reviewed the technical panel’s documentation of discussions and determined that the
adjustments in the ratings were supported and were evaluated consistently in accordance with the
criteria in the KESF source selection evaluation plan. The panel recommended that the highest
rated offeror, Global Strategies Group, Inc., with final ratings in both technical merit and past
performance of “excellent,” be awarded the KESF task order.

       Task Order Award Decision

        OIG found that the contracting officer did not agree with the technical panel’s
recommendation when making the KESF task order award recommendation to the source
selection authority. Although the contracting officer considered the panel’s recommendation,
ultimately a lower priced contractor, EODT, was recommended for the award. The contracting
officer concluded, in the Best Value Award Recommendation, that it was more advantageous for
the Government to award the KESF task order to EODT because of EODT's “many enumerated
strengths, excellent past performance rating, and lowest price.” The contracting officer cited
several strengths in EODT’s technical proposal: EODT’s 5-year presence in Afghanistan, more
than 1,200 personnel working in Afghanistan, a comprehensive transition timeline for its
transition team, and a 28,000 candidate database from which to recruit personnel. Additionally,
EODT was the second highest rated offeror, and its proposed price was $92 million lower than
Global Strategies Group, Inc.’s proposed price. The source selection authority agreed with the
contracting officer and awarded the KESF task order to EODT on September 30, 2010.

        Despite the contracting officer’s positive evaluation of EODT’s timeline for transition,
EODT has encountered numerous problems since it was awarded the KESF task order. From
November 2010 to early March 2011, the contracting officer issued a series of notices to EODT
citing performance deficiencies such as problems with the training curriculum and lesson plans,
delays in submitting personnel information, and inadequacies in recruitment and screening
procedures. In early December 2010, the contracting officer determined that EODT would not



                                          11
                              SENSITIVE BUT UNCLASSIFIED
                                    SENSITIVE BUT UNCLASSIFIED


be able to meet the January 1, 2011, transition deadline50 and, as a result, extended the transition
date to May 1, 2011.51 Although EODT provided alternative solutions to correct the
deficiencies, the contracting officer determined that the solutions suggested were unacceptable
and that EODT would not be able to meet the extended May 1, 2011, deadline. On March 11,
2011, the Department terminated EODT’s KESF task order contract for default.

        EODT contested the termination and entered into a 3-month litigation process with the
Department. The Department settled with EODT on June 15, 2011, agreeing to convert the
termination for default to a termination for convenience of the Government and to pay certain
costs to be determined by a Defense Contract Audit Agency audit.52 As part of the settlement
agreement, EODT was not eligible to re-compete for the KESF task order. However, EODT is
allowed to compete for other task orders under the WPS contract, and the Department is able to
use EODT’s performance on the original KESF task order and subsequent termination as a part
of the past performance evaluation. Nonetheless, since the termination of the KESF task order,
EODT has not been awarded any task orders under the WPS contract. On July 29, 2011, the
Department awarded the re-competed KESF task order to Aegis Defense Services, LLC.

        In the March 14, 2011, request to OIG, the Chairman of the Subcommittee on
Contracting Oversight, U.S. Senate Committee on Homeland Security and Governmental
Affairs, questioned whether the Department, prior to the award of the KESF task order, was
aware of EODT’s performance on Department of Defense contracts cited in the Senate Armed
Services Committee report on private security contractors in Afghanistan.53 While the FAR
states that the Department should contact other Federal agencies before making “the
determination of responsibility,” it does not require the Department to contact other Federal
agencies regarding the past performance of their contractors,54 as PPIRS is the official past
performance repository system for Federal agencies. OIG reviewed the reports from PPIRS that
the contracting officer gathered for EODT and found that the system included EODT’s past
performance reports on Department of Defense contracts. However, the information cited in the
Senate Armed Services Committee’s report was not included in any of PPIRS reports. In
addition, OIG found that questionnaires sent by the contracting officer to gather additional past
performance information for EODT contained information indicating that all contracting officials
who were contacted would use EODT in the future. OIG determined that the Department was
not aware of EODT’s past performance until the Senate Armed Services Committee’s report was
released to the public in October 2010, which was after the WPS contract and the KESF task
order had been awarded. Lastly, OIG noted that although GAO has reviewed the use of past
performance information, has identified weaknesses in the process, and has made
recommendations for improvement, weaknesses continue to exist regarding the inclusion of


50
   The Department initially planned to have EODT fully transition operations from the incumbent, U.S. Embassy 

Kabul security contractor ArmorGroup North America, Inc., on January 1, 2011. 

51
   Because of the extension of the transition deadline, the Department entered into a bridge contract on January 1, 

2011, with ArmorGroup North America, Inc., to continue to perform security services over a 4-month period with

two 4-month options. The bridge contract was valued at $118.6 million.

52
   As of September 14, 2011, the Defense Contract Audit Agency had not completed its audit.

53
   U.S. Senate Committee on Armed Services report.

54
   FAR 9.105-1(c). 

                                                12
                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


pertinent information in PPIRS. These weaknesses point to a Government-wide issue
concerning the input of information into PPIRS.

                                        Other Matters

The Senate Armed Services Committee’s Investigation of Private Security Contractors in
Afghanistan

        The Senate Armed Services Committee contacted the Department of State on March 5,
2009, initiating a dialogue about the Department’s private security contractors and associated
issues in preparation for a committee investigation. The committee, however, did not formally
disclose its investigation until May 2009, when it sent the Department an official request for
information. The Department delivered the requested information to the committee between
August and September 2009. However, during its investigation, the committee did not interview
any Department officials or communicate the preliminary investigation results to the
Department.

        On October 7, 2010, the committee released its report detailing private security contractor
misconduct in Afghanistan to the Department.55 The investigation found that to assist in staffing
its guard force, EODT “partnered with local strongmen” with ties to “criminal and anti-Coalition
activities.” The committee gathered evidence of EODT’s misconduct through interviews with
contractor personnel; reviews of internal contractor documents and records; and information
requests from Department of Defense, Defense Intelligence Agency, and private contractor
personnel from several companies. On October 25, 2010, the committee sent a letter to the
Department expressing its concerns over inconsistencies in EODT’s public statement on the
report’s findings and to remind Department officials to consider the report’s findings and
EODT’s public statement when considering the company for contract awards. In a letter dated
January 14, 2011, the Department assured the committee that its report, letter, and EODT’s
statements were now included in EODT’s past performance information provided to the current
and future evaluation panels for proposals for task orders that will be awarded under the WPS
contract.




55
     Ibid.
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED



                                                                                                  Appendix A
                                       Scope and Methodology
        This audit was conducted at the request of the Chairman of the Subcommittee on
Contracting Oversight, U.S. Senate Committee on Homeland Security and Governmental
Affairs, who asked the Office of Inspector General (OIG) to “investigate the State Department’s
review of contractor past performance prior to the award of the WPS [Worldwide Protective
Services] contract and the Kabul Embassy task order, including whether the Department
reviewed information from the Defense Department or the incidents discussed in the Senate
Armed Services Committee report.”1 (The Chairman’s letter is in Appendix C of this report.)
Accordingly, OIG conducted this audit to determine whether the Department of State’s
(Department) process to award the Worldwide Protective Services (WPS) contract and the Kabul
Embassy Security Force (KESF) task order included required procedures to assess contractor
responsibility, including past performance and technical merit.

        OIG conducted this audit from April to September 2011 in the Washington, DC,
metropolitan area. This performance audit was conducted in accordance with generally accepted
government auditing standards. These standards require that OIG plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for the findings and
conclusions based on the audit objectives. OIG believes that the evidence obtained provides a
reasonable basis for the findings and conclusions based on the audit objectives.

        OIG reviewed relevant contracting regulations as established by Federal and Department
policy and reviewed the criteria included in the WPS contract and KESF task order solicitations.
OIG met with officials from the Bureau of Diplomatic Security, including technical evaluation
panel members, as well as the contracting officer and source selection authority from the Bureau
of Administration. OIG obtained official contract documentation used throughout the evaluation
and award process from the contracting officer. These sources and documents were analyzed to
determine whether the WPS contract and the KESF task order were awarded in accordance with
the rules and regulations mandated by the Federal Acquisition Regulation, the Foreign Affairs
Manual, and the Foreign Affairs Handbook.2

        Specifically, OIG determined whether proposals submitted in response to the WPS
contract and KESF task order solicitations were evaluated in accordance with the stated criteria,
as required by the FAR.3 OIG determined whether the source selection evaluation plans were
prepared in accordance with the WPS contract and KESF task order solicitations, including
reviews of stated technical merit and past performance requirements. OIG reviewed panel
documentation to determine whether the panel had followed the Source Selection Evaluation
Plans, documented the evaluation of each proposal’s technical merit and past performance,
prepared a consensus report, and provided recommendations for award to the contracting officer.

1
  U.S. Senate Committee on Armed Services, Report: Inquiry Into the Role and Oversight of Private Security

Contractors in Afghanistan (Sept. 28, 2010). 

2
  FAR 9, “Contractor Qualifications”; FAR 15, “Contracting by Negotiation”; 14 FAM 200, “Acquisitions”; 

14 FAH-2, “Contracting Officer’s Representative Handbook”; and WPS Solicitation Section L, “Instructions, 

Conditions, and Notices to Offerors and Respondents,” and Section M, “Evaluation Factors for Award.” 

3
  FAR 15.305(a), “Source Selection–Proposal evaluation.”

                                              14
                                  SENSITIVE BUT UNCLASSIFIED
                                  SENSITIVE BUT UNCLASSIFIED

        OIG also interviewed panel members to ensure that the individuals appointed were
experienced and “technically competent to identify the strengths and weaknesses of the various
proposals,” as required by the Foreign Affairs Handbook.4 OIG also reviewed the contract
documentation to ensure that the contracting officer and source selection authority followed the
FAR5 requirements for awarding contracts only to responsible offerors, including review of
appropriate past performance information. Further, OIG determined whether the source
selection authority documented the WPS contract and KESF task order award decision, including
any necessary justifications.

       In addition, OIG met with officials from the Bureau of Legislative Affairs and reviewed
documentation to determine whether Department officials were aware of EODT’s past
performance as reported by the Senate Armed Services Committee’s report6 and referenced in
the Chairman’s request for this audit.

Use of Computer-Processed Data

       During the audit, OIG reviewed only hard-copy source documentation. OIG was not
provided computer-processed data, and it was therefore unnecessary for OIG to test or assess the
usage of controls for computer-processed data.

Review of Internal Controls

       To assess the adequacy of internal controls related to the areas audited, OIG reviewed
Federal and Department guidance for the applicable policies and procedures established to
ensure that contract award processes are properly administered and implemented. Specifically,
OIG assessed the Source Selection Evaluation Plans and the technical evaluation panel
documentation for consistency with the Federal Acquisition Regulation, the Foreign Affairs
Manual, the Foreign Affairs Handbook, and WPS contract and KESF solicitations requirements.
To accomplish this, OIG obtained an understanding of internal controls through a review of the
Department’s documents and records and assessed the Department’s compliance with applicable
laws and regulations for awarding contracts. OIG’s conclusions are presented in the “Audit
Results” section of the report.




4
  14 FAH-2 H-421.1, “Contracting Officer’s Representative (COR) Responsibilities.”

5
  FAR 9.103(b), “Responsible Prospective Contractors–Policy.” 

6
  U.S. Senate Committee on Armed Services report.

                                              15
                                  SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


                                                                                        Appendix B
                   Technical Evaluation Panel’s Ratings of Offerors
        During the Worldwide Protective Services (WPS) contract evaluations, the technical
evaluation panel identified areas of weaknesses in both technical and past performance areas in
each proposal, and it asked each offeror to address, through the contracting officer, its responses
to these weaknesses. Based on the offerors’ responses, the panel adjusted some of the ratings
from the initial ratings to the final ratings. The nine offerors’ ratings before and after discussions
are shown in Table 1.

Table 1. Initial and Final Ratings of O
                                           (b) (4)
                Offerors
1) Aegis Defense Services, LLC
2) SOC, LLC
3) International Development
   Solutions, LLC
4) Torres International Services, LLC
5)   EODT
6)   Triple Canopy, Inc.
7)   Global Strategies Group, Inc.
8)   DynCorp International, LLC



       During the Kabul Embassy Security Force task order evaluation, the panel evaluated four
contractors during the discussion period. The panel’s initial and final ratings of the offerors are
shown in Table 2.

Table 2. Initial and Final Ratings of Offerors During Discussions on the Kabul Embassy
Security Force Task Order
                                      (b) (4)
                Offerors
1)   Aegis Defense Services, LLC
2)   SOC, LLC
3)   EODT
4)   Global Strategies Group, Inc




                                           16
                               SENSITIVE BUT UNCLASSIFIED
                                                            SENSITIVE BUT UNCLASSIFIED



                                                                                                                              Appendix C

Letter From the Chairman of the Subcommittee on Contracting Oversight,
 U.S. Senate Committee on Homeland Security and Governmental Affairs

                   JOSEPH I. UEIlER MAN, CONN [CTICUT, C ...... RMAN

     c.AA l l[ItlN MICH>GAN                  SUSAN M COlLINS, MAINf
     DANIELIl M.Av.. HAWAJI                  r OM COBU RN, OO<WKlMA
     THOMAS " _ CARI'£R. Df\.AWAAE           scon P 8RO'WN, MASSACHUSfnS
     MAA~ L ~YO!I. AA ..... NSAS             JOHN McCAIN. AAllONA
     MAAY l !,.O.NDRIf:U.lOUI$IANA
     ClAIRE M'-o.S~"1. "" SSOO~'
     JON TESTER. MONTANA
     MAlIK ~E(;ICH . ALASKA
                                             RON JOHNSON. 'MSCONSIN
                                             JOH N HISIGN. NEVADA
                                             RO!!   PO'H~.    OHIO
                                              FlANO PAUl. KENTOJ{;KV
                                                                               'tinitcd ~mtcs ~cnatc
                                                                                         COMMITTEE ON
                       MICI....UL A1£ ..... N~n. STAn DlIII:OOR            HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                    NICHOlASA ROSSI, MINORITY STAFf ~ECTOR

                                                                                    WASHINGTON. DC 20510----6250




                                                                                   March 14,2011


                   Harold W. Geisel
                   Deputy Inspector General
                   U.S. Department of State
                   Office of Inspector General
                   2201 C Street, NW
                   Washington, DC 20522·0308

                    Dear Ambassador Geisel :

                            I am writing to request that you initiate an investigation into the State Department's award of
                    contracts for guard services at u.s. embassies, including the U.S. Embassy in Kabu l, Afghanistan.

                            On June 10,2009, the Subcommittee on Contracting Oversight held a hearing examining a
                    contract for guard services perfonned at the U.S. Embassy in Kabu l by the contractor AnnorGroup North
                    America, Inc . (AGNA), now owned and controlled by G4S/Wackenhut Services, Inc. The hearing
                    reviewed potential contractor violations, including internal State Department documents finding that
                    AGNA's inadequate perfonnance of the contract had placed the security of the Embassy "i n jeopardy.'"

                            In September 2009, I sent a letter to the State Department's Under Secretary for Management,
                    Patrick Kennedy, raising additional concerns about AGNA's perfonnance, including troubling allegations
                    regarding guard shortages, hazing, alcohol abuse, and misuse of government property by AGNA
                    emp loyees in Kabul. 2 Both the hearing and these subsequent allegations raised serious questions
                    regarding the State Department's management and oversight of private security contractors at the u.S.
                    Embassy in Kabul.

                             In December 2009, the State Department advised AGNA that it would not be exercising the
                    Department's option to extend AGNA's contract for an additional year? On March 1,20 I0, in response
                    to my quest ions about the State Department's hand ling of the Kabul Embassy guard contract,
                    Ambassador Boswell assured me that the State Department had taken "swift action" to investigate the
                    allegations of misconduct by the AGNA guards. He continued:



                                   I   Letter from James S. (Steve) Rogers, Senior Contracting Officer, U.S. Department of
                     State, to AGNA President Karl Semancik (July 19,2007) (incorrectly dated June 19,2007).
                                   2   Letter from C hainnan McCaskill to Patrick F. Kennedy, Under Secretary for
                     Management, U. S. Department of State (Sept. I, 2009).
                            3 E-mail from Department of State Bureau of Legislative Affairs to Senate Homeland
                     Security and Governmental Affairs, Subcommittee on Contracting Oversight Staff(Dec. 7,
                     2009).




                                                                        17
                                                            SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED





Harold W. Geisel
March 14,2011
Page 2


       The results of a senior-level Department review of the circumstances and investigative
       findings, combined with AGNA's history of contract compliance deficiencies, led [the
       Departm~nt] to conclude that it was in the best interest of the Government to compete a
                     4
       new contract.

        On September 30, 2010, the State Department awarded a contract to EOD Technology, Inc.
(EODT) to replace AGNA as the contractor for guard services at the Kabu l Embassy. The contract,
which is valued at $273 million over the next five years, was awarded as a task order under the
                                                                         s
Department's Worldwide Protective Services (WPS) umbrella contract. The WPS umbrella contract was
awarded on September 29, 20 I 0 to eight contractors, including EODT, each of whom is guaranteed to
                                                                                                       6
receive contracts worth at least $5 ,000 under the contract, which can reach a maximum of$1 0 billion.
The WPS umbrella contract wi ll allow multiple lDlQ contract task orders for personal, static, and
emergency guard services worldwide, including in Afghanistan, Iraq, and Jerusalem.7

         Based on infonnation released by the Senate Armed Services Committee, I have serious concerns
regarding the State Department' s award of the WPS contract and subsequent task orders to EODT. The
Committee's report found multiple examples of private security contractors working for the Defense
Department who funneled U.S. taxpayer dollars to Afghan warlords. The Committee also found that the
performance of EODT and other private security contractors was so inadequate that their failures "directly
affect the safety of U.S. military personneL'.g

        The Committee also detailed evidence of serious misconduct by EODT in Afghanistan, including:

       4 Ambassador Eric Boswell Response to Senator Claire McCaskill Questions for the
Record, Homeland Security and Governmental Affairs Subcommittee on Oversight of
Government Management, the Federal Workforce, and the District of Colombia hearing, The
Diplomat's Shield: Diplomatic Security in Today's World (Dec. 9, 2009), submitted March I,
2010.
    5 EOD Technology, Inc. Task Order IDV PHD: PHD SAQMMA IOD0096 :
SAQMMAIOF5213, Online at www.USASpending.gov (accessedFeb. 22, 2011).
        6 E.mail from Department of State Bureau of Legislative Affairs to Senate Homeland
Security and Governmental Affairs, Subcommittee on Contracting Oversight Staff (Sept. 29,
2010). The other seven contractors are: Aegis Defense Services, LLC~ DynCorp International,
LLC; Global Strategies Group (Integrated Security), Inc; International Development So lutions,
LLC; SOC, LLC; Torres International Services, LLC; and Triple Canopy, Inc. Id. One of the
WPS awardees, International Development So lutions, appears to be a joint venture between
Kaseman and U.S. Training Center, an affi liate ofXe Services, fonnerly known as Blackwater.
See Exclusive: Blackwater Wins Piece 0/$10 Billion Mercenary Deal, Danger Room (Oct. 1,
2010). The Subcommittee has been unable to verify whether the State Department was aware of
the affiliation with Blackwater prior to the award of the WPS contract.
        7 See FedBizOpps.gov (online at
https:llwww. fbo.gov/index?s=opportunity&mode- fonn&tab- core&id- 51 0481 d9cc63 30df06af3
decbedl696a& cview=O ) (accessed March 7, 2011).
       8 U.S. Senate Committee on Anned Services, Report: Inquiry Into the Role and
Oversight of Private Security Contractors in Afghanistan (Sept. 28, 20 I 0).




                                     18 

                         SENSITIVE BUT UNCLASSIFIED

                           SENSITIVE BUT UNCLASSIFIED





Harold W. Geisel
March 14,2011
Page 3


      •   Relying on local Taliban warlords to provide guards and, in some cases weapons, for use on
          EODT's contracts;

      •   Failing to adequately investigate guards' previous employment, which resulted in the company's
          hiring individuals who had previously been fired for sharing sensitive security infonnation with
          Taliban warlords; and

      •   Failure to appropriately vet guards, some of whom, according to U.S. intelligence reports, may
                                                          9
          have been involved in anti·American activities.

         It is unclear whether the State Department was aware ofEODT's past perfonnance on other
private security contracts prior to its award of the Kabul Embassy security contract. However, the award
of the contract to EODT, particularly given the Department's difficulties with managing the AGNA
contract, raises serious concerns regarding the Department's evaluation of contractors. As a result, I
request that you investigate the State Department's review of contractor past perfonnance prior to the
award of the WPS contract and the Kabul Embassy task order, including whether the Department
reviewed infonnation from the Defense Department or the incidents discussed in the Senate Armed
Services Committee report.

        The jurisdiction of the Subcommittee on Contracting Oversight is set forth in Senate Rule XXV
clause I(k); Senate Resolution 445 section 101 (108 th Congress); and Senate Resolution 73 (I 11 th
Congress).

        I apprec iate your assistance. Please contact Alan Kahn with the Subcommittee staff at (202) 224-
3230 with any questions. Please send any official correspondence relating to this request to
kelsey stroud@hsgac.senate.gov.

                                                  Sincerely,




                                                  Claire McCaskill
                                                  Chairman
                                                  Subcommittee on Contracting Oversight


cc:       Rob Portman
          Ranking Member




          9Id.




                                       19 

                           SENSITIVE BUT UNCLASSIFIED

                   SENSITIVE BUT UNCLASSIFIED



                                                                                      Appendix D

            Bureau of Diplomatic Security Response

                                                  United States Department of State

                                                  Washington, D.C. 20520




                                                       NOV 2 2 2011

UNCLASSIFIED


INFORMATION MEMO FOR HAROLD W. GEISEL, DEPUTY
INSPECTOR GENERAL

FROM:       DSIMGTIPPD

SUBJECT: Audit of the Department of State Process to Award the Worldwide
         Protective Services Contract and Kabul Embassy Security Force Task
         Order

       Thank you for the opportunity to review and comment on the subject draft
report. Please be advised that DS does not have any comments.




                                UNCLASSIFIED




                               20
                   SENSITIVE BUT UNCLASSIFIED
                 SENSITIVE BUT UNCLASSIFIED



                                                                                 Appendix E
             Bureau of Administration Response


                                          United States Departme nt of State

                                          Washington, D.C. 20520


                                           November 29,2011



MEMORANDUM

TO:          oro -   Evelyn Klemstine

FROM:

SUBJECT: Draft Report on                           of State Process To
Award the Worldwide Protective Services Contract and Kabul Embassy
Security Force Task Order


Below is the Bureau of Administration 's response to the subject audit report.



The Office of Acquisitions Management (AILMI AQM) appreciates the
opportunity to comment on the draft report. While the draft report did not
contain any specific recommendations, AQM, in consultation with LIBA,
recommends redacting the identity of the non-awardees in Table I.




                              UNCLASSIFIED




                             21
                 SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Major Contributors to This Report
Regina M. Meade, Director
Division of Security and Intelligence
Office of Audits

Beverly J.C. O’Neill, Audit Manager
Division of Security and Intelligence
Office of Audits

Nina Y. Lin, Auditor in Charge
Division of Security and Intelligence
Office of Audits

Laura G. Miller, Management Analyst
Division of Security and Intelligence
Office of Audits

Alexandra Vega, Management Analyst
Division of Security and Intelligence
Office of Audits

Joseph D. Hamrock, Management Analyst
Division of Security and Intelligence
Office of Audits




                                         22
                             SENSITIVE BUT UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs

            and resources hurts everyone.




         Call the Office of Inspector General

                      HOTLINE

                     202/647-3320

                  or 1-800-409-9926

        to report illegal or wasteful activities.



               You may also write to

             Office of Inspector General

              U.S. Department of State

               Post Office Box 9778

                Arlington, VA 22219


       Please visit our Web site at oig.state.gov


           Cables to the Inspector General

          should be slugged “OIG Channel”

              to ensure confidentiality.

SENSITIVE BUT UNCLASSIFIED





SENSITIVE BUT UNCLASSIFIED

